SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 312 853 7000
RHOCHMAN@SIDLEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
CAPITAL CASE
No. 20-1084
Jefferson S. Dunn, Commissioner, Alabama Department of Corrections,
v.

Petitioner

Matthew Reeves,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Robert N. Hochman, certify
that the Brief in Opposition in the foregoing case contains 8,951 words, excluding
the parts of the document that are excluded by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 12, 2021.

_/s/ Robert N. Hochman
ROBERT N. H OCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

